   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




February 1, 2011

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Adams County Community Development
               (A-07-10-02765)


The attached final report provides the results of our limited scope review at Adams County
Community Development. In accordance with the American Recovery and Reinvestment Act of
2009, the Office of Inspector General (OIG) will provide oversight of covered funds to prevent
fraud, waste and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-07-10-02765
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
 REVIEW AT ADAMS COUNTY
 COMMUNITY DEVELOPMENT




                      Daniel R. Levinson
                       Inspector General

                        February 2011
                        A-07-10-02765
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L.
No. 105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty
in communities. Within the U.S. Department of Health & Human Services, the Administration
for Children and Families (ACF), Office of Community Services, administers the CSBG
program. The CSBG program funds a State-administered network of more than 1,000 local
Community Action Agencies (CAA) that create, coordinate, and deliver programs and services
to low-income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

In Colorado, the Department of Local Affairs (DOLA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DOLA is responsible for approving the
State’s grantee Recovery Act grant applications and for monitoring the grantees for compliance
with program regulations. In April 2009, DOLA was awarded an additional $8,684,648 in
Recovery Act funds for the State of Colorado’s CSBG program.

Adams County Community Development (ACCD), a local government organization, provides a
comprehensive variety of services including education, emergency services, employment, and
nutrition. During fiscal year 2009, DOLA awarded ACCD $373,607 in CSBG grant funds and a
Recovery Act grant award totaling $696,243. For fiscal year 2009, Adams County expended
total Federal funds of $118,668,950.

OBJECTIVE

Our objective was to assess ACCD’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, we believe ACCD is financially viable and has the capacity to manage
and account for Federal funds and to operate its CSBG program in accordance with Federal
regulations. However, we noted weaknesses related to the allowability of costs, data quality and
reporting, policies and procedures, and the whistleblower process.




                                                i
RECOMMENDATION

In determining whether ACCD is appropriately managing and accounting for the Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing ACCD’s ability to operate the CSBG program in accordance with Federal regulations.

GRANTEE COMMENTS

In written comments on our draft report, ACCD provided information as to corrective actions it
has taken since our review, as well as additional information related to some of our findings.
ACCD noted that we used incorrect terminology for the backup documentation discussed in the
Allowability of Costs finding.

ACCD’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We did not verify the corrective actions or the validity of the additional information provided.
We corrected the terminology for the backup documentation discussed in the Allowability of
Costs finding, but otherwise, nothing in ACCD’s comments caused us to change our findings or
our recommendation to ACF.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Colorado Department of Local Affairs ..........................................................1
              Adams County Community Development ....................................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          ALLOWABILITY OF COSTS..................................................................................3

          DATA QUALITY AND REPORTING.....................................................................4

          POLICIES AND PROCEDURES .............................................................................5

          WHISTLEBLOWER PROCESS ...............................................................................5

          RECOMMENDATION .............................................................................................5

          GRANTEE COMMENTS .........................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................6

APPENDIX

          GRANTEE COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L.
No. 105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty
in communities. Within the U.S. Department of Health & Human Services, the Administration
for Children and Families (ACF), Office of Community Services (OCS), administers the CSBG
program. The CSBG program funds a State-administered network of more than 1,000 local
Community Action Agencies (CAA) that create, coordinate, and deliver programs and services
to low-income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

Colorado Department of Local Affairs

In Colorado, the Department of Local Affairs (DOLA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DOLA is responsible for approving the
State’s grantee Recovery Act grant applications and for monitoring the grantees for compliance
with program regulations. In April 2009, DOLA was awarded an additional $8,684,648 in
Recovery Act funds for the State of Colorado’s CSBG program.

Adams County Community Development

Adams County Community Development (ACCD), a local government organization, provides a
comprehensive variety of services including education, emergency services, employment, and
nutrition. During fiscal year 2009, DOLA awarded ACCD $373,609 in CSBG grant funds and a
Recovery Act grant award totaling $696,243. For fiscal year 2009, Adams County expended
total Federal funds of $118,668,950.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and to take
periodic physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27,
the allowability of costs incurred by State, local, or federally-recognized Indian tribal


                                               1
governments is determined in accordance with the provisions of Office of Management and
Budget (OMB) Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments.
The CSBG Act establishes the CSBG program and sets the requirements and guidelines for
CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess ACCD’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of ACCD’s financial viability, financial management system, and
related policies and procedures. Therefore, we did not perform an overall assessment of
ACCD’s internal control structure. Rather, we reviewed only the internal controls that pertained
directly to our objectives. Our review period was March 1, 2009, through July 31, 2010.

We performed our fieldwork at ACCD’s administrative office in Westminster, Colorado, during
July and August 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that ACCD is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed ACCD’s application and implementation of the grant awards for the Recovery
        Act funding;

   •    reviewed the findings related to the most recent State review;

   •    reviewed ACCD’s policies and procedures related to the CSBG program;

   •    reviewed ACCD’s by-laws, minutes from the Board of Director (Board) meetings,
        composition of the Board, and organizational chart;

   •    performed audit steps to assess the adequacy of ACCD’s current financial systems; and

   •    reviewed ACCD’s audited financial statements and supporting documentation for the
        period of January 1, 2007, through December 31, 2009.



                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATION

Based on our assessment, we believe ACCD is financially viable and has the capacity to manage
and account for Federal funds and to operate its CSBG program in accordance with Federal
regulations. However, we noted weaknesses related to the allowability of costs, data quality and
reporting, policies and procedures, and the whistleblower process.

ALLOWABILITY OF COSTS

Pursuant to OMB Circular A-87, Attachment A, section C, “Basic Guidelines,” allowable costs
must be adequately documented, and conform to any limitations or exclusions set forth in the terms
and conditions of the Federal award, to be allowable for reimbursement under Federal award
programs.

Generally, the expenditures that we reviewed were allowable. However, we found instances
where ACCD used CSBG funds for unallowable costs. ACCD requires its sub-recipients to
submit pay requests along with supporting documentation in order to receive CSBG funds. We
reviewed the supporting documentation submitted by 4 of 13 sub-recipients of Recovery Act
CSBG funds 1 and by 3 of 8 sub-recipients of regular CSBG funds 2 and identified the following
weaknesses:

      •   ACCD paid for employee services, claimed by three sub-recipients, that were not
          adequately supported because the total hours reported on timesheets and paystubs
          differed from the total hours claimed. Two sub-recipients’ CSBG Recovery Act pay
          requests did not support $1,581 of salary costs. Similarly, one regular CSBG sub-
          recipient’s pay requests did not support $115 of salary costs reported in three pay periods.

      •   ACCD paid a $300 motel voucher for rental assistance claimed on one sub-recipient’s
          CSBG Recovery Act pay request even though the request was missing a motel receipt.

      •   ACCD paid $390 in rental and utility assistance expenses claimed on one sub-recipient’s
          regular CSBG pay request that lacked supporting documentation.


1
    ACCD awarded $696,243 of Recovery Act CSBG funds to 13 sub-recipients.

2
  ACCD awarded $99,310 of regular CSBG funds to 8 sub-recipients in program year 2009. These regular CSBG
funds were administered on a program year, rather than a fiscal year, basis. Program year 2009 ran from
March 1, 2009, through February 28, 2010.




                                                      3
      •   ACCD paid $766 in fringe benefits and supplies that exceeded the budgeted amount for
          these line items authorized in the sub-recipient’s CSBG Recovery Act contract 3 with
          ACCD.

We also reviewed the direct and indirect costs claimed by ACCD under the regular CSBG
program in program year 2009. Two employee timesheets did not support $351 of direct salary
costs allocated to the program because the actual percentage of hours worked differed from the
claimed percentage.

DATA QUALITY AND REPORTING

OMB’s December 18, 2009, Updated Guidance on the American Recovery and Reinvestment Act
– Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates memorandum
(M-10-08 memorandum), simplified the manner in which job estimates are calculated and
reported. Specifically, the memorandum required recipients to report job estimates on a
quarterly, rather than cumulative, basis. As a result, recipients were no longer required to sum
various data on hours worked across multiple quarters of data when calculating job estimates. In
addition, recipients were no longer required to make a subjective judgment on whether jobs were
created or retained as a result of the Recovery Act. Instead, recipients would more easily and
objectively report on jobs funded with Recovery Act dollars. Recipients should have
implemented the updated methodology to the greatest extent possible for the January 2010
reporting period.

At the time of our review, ACCD had not updated its reporting methodology to reflect these
updated Federal guidelines. Specifically, ACCD’s reporting methodology did not conform to
OMB’s requirements by mandating that ACCD report its job estimates on a quarterly rather than
a cumulative basis. Nor did that reporting methodology contain provisions to facilitate the
objective reporting of jobs funded with Recovery Act dollars. For example, ACCD’s quarterly
report submitted to DOLA on July 2, 2010, showed that the number of jobs created or retained
by ACCD’s Recovery Act CSBG sub-recipients was 72.5 full-time equivalents (FTE) for the
quarter ending June 30, 2010. This calculation included jobs created for clients (or customers),
not just jobs funded with Recovery Act dollars as specified by the M-10-08 memorandum.

Based on guidance from DOLA, ACCD resubmitted (on July 19, 2010) a job estimate for the
same quarter that reported 27.36 FTE. The revised job estimate included only jobs funded with
Recovery Act dollars; however, it was still calculated on a cumulative basis. After our
fieldwork, ACCD again recalculated its job estimates for each quarter with job activity, on a
quarterly basis in accordance with OMB’s M-10-08 memorandum. The updated report
(submitted to DOLA on August 20, 2010) showed that for the quarter ending June 30, 2010, the
period of our example, the job estimate calculated on a quarterly basis was 13.1 FTE of jobs
funded with Recovery Act dollars.




3
    As amended in June 2010.



                                                4
POLICIES AND PROCEDURES

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs.

Generally, the written policies and procedures used by ACCD were adequate. However, during
our fieldwork ACCD was still in the process of drafting a policies and procedures manual for the
CSBG program. ACCD staff was using the draft policies and procedures, but the manual had not
been finalized and adopted by the Board. In addition, Adams County’s Grant Management
Policies and Procedures Manual existed only in draft form.

ACCD’s draft policies and procedures manual for the CSBG program did not address
administrative costs. Because OCS issued guidance modifying the definition of administrative
costs, as defined by OMB Circular A-87, and because ACCD did not track administrative costs
at the transaction level, it became incumbent on ACCD to develop policies and procedures to
ensure that administrative costs are clearly defined, coded at the transaction level, and tracked in
the general ledger. Developing and implementing these administrative cost policies and
procedures will increase the accuracy of administrative costs reported in the CSBG fiscal year-
end report submitted to DOLA.

WHISTLEBLOWER PROCESS

Section 1553(a) of the Recovery Act prohibits reprisals against an employee of a organization
awarded Recovery Act funds for disclosing to appropriate authorities any credible evidence of
(1) gross mismanagement of an agency contract or grant relating to covered funds; (2) a gross
waste of covered funds; (3) a substantial and specific danger to public health or safety related to
the implementation or use of covered funds; (4) an abuse of authority related to the
implementation or use of covered funds; or (5) a violation of law, rule, or regulation related to an
agency contract (including the competition for or negotiation of a contract) or grant awarded or
issued relating to covered funds. Pursuant to section 1553(e) of the Recovery Act, any employer
receiving covered funds shall post notice of the rights and remedies provided for the protection
of employees under this section.

ACCD did not have a process established to communicate to officers, employees, and others
information concerning the rights and remedies provided by the Recovery Act for reporting
suspected instances of wrongdoing by ACCD or employees of ACCD.

RECOMMENDATION

In determining whether ACCD is appropriately managing and accounting for the Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing ACCD’s ability to operate the CSBG program in accordance with Federal regulations.




                                                 5
GRANTEE COMMENTS

In written comments on our draft report, ACCD provided information as to corrective actions it
has taken since our review, as well as additional information related to some of our findings.
ACCD noted that we used incorrect terminology for the backup documentation discussed in the
Allowability of Costs finding.

ACCD’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We did not verify the corrective actions or the validity of the additional information provided.
We corrected the terminology for the backup documentation discussed in the Allowability of
Costs finding, but otherwise, nothing in ACCD’s comments caused us to change our findings or
our recommendation to ACF.




                                                6
APPENDIX
                                                                                                                     Pagelof9


                             APPENDIX: GRANTEE COMMENTS 




Donald M. Cassata, PH .D.
         D' ~("OR


     Brian P. Kenna
     OOV "'ON D'"telO "

Jacquelin e Pickt'tt , MBA
                                                   I' 

                                            ADAMS COUNTY
                                                   4iC I! l,n ,.
                                                                                   Humon s.,,,·ices Department
                                                                                    Community DC\'cIOI,ment
                                                                                       12200 P"':os Sired
                                                                                     Wcstmin'ln. CO 80n~
                                                                                       . ~ O ~t   303.453.S500
                                                                                        " J 303.453.8505 

      AO "'M IS' ~" O "                                                                www.co.• dam •.co.u. 





   October 18, 2010

   Department of Health and Human Services
   Attn: 	 Patrick Cogley
           !'atrick.co!!lev@oig.hhs.gov
           Regional Inspector General
           For Audit Services
   60 I East I i h Street
   Room 0429
   Kansas City, Missouri, 64 106

   With Copy to: James Kom
                 Audit Manager
                 Jamcs.kom@oig,hhs.g9v

   Report Number: A-07-10-02765.

   Dear Mr. Cogley:

   O n behalf of Adams County Community Development, enclosed, please find fonnal
   response to the draft report remitted to our office on October 8, 2010. Please feel free to
   contact me at 303.453.8520 or ipickett@co,adams.co,us if you have an y questions or
   comments. I look forward to your final report.


   Sinc~ .1'1
   Jacq-uev.~~
   Admi iSlra!or

   E"'tsures
         /(4i
                          I. Response 10 each finding (04);
                          2. Recalculation of Access Housing salary, fringe;
                          3. Email confinlling recalculation to Access Housing;
                          4. Recalculation of Road Called STRATE salary, fringe.




                                         B OARO 0 . C OU N' , C O "" 'U'O . , U

   W, R. KSkip" Fischer                             A1i er J. Nichol                       Larry W, Pae~
         DIS tR IC. 1                                  DIURICT Z                                  D lS l ~ I "   3
                                                                                                               Page2of9




                                                                     Allachmrnl I.   I~esponse   to Findings

ALLOWAUILITY OF COSTS

#1; Adams County Community Development staff re-calculated ACCESS Housing and the
Road Called STRAT E's Salary & Fringe directly from time sheets submitted by the agencies
ill their draw-down requests using the total hours worked in the pay period by the hours
worked in the program. I have attached the two spreadsheets that show this calculation and
Ihe amount of money over/under spent in each program's Salary & Fringe, We then
communicat.::d with each agency that we would be deducting thei r next draw-down by the
amount listed on the spreadsheets (see attached emails), in ACCESS Housing's case we
deducted $],156,66 frOllltheirnext draw-down and for the Road Called STRATE we did an
amendme nt and changed their Fringe Benefits Line-hem to $1.155,28 (and increased their
supplies linc-itcm by 5324) and deducted $384.94 (for overpa yment of salary) from Iheir
next draw-down.

#2: As OIG staff stated in an email to ACCDon 10/ 15110, this was a mistake on the OIG 's
part as this was not a travel request, but what they are now calling a "motel voucher". It was
actually ren tal assistance expenditure for $300... the back-up documentation for this
expenditure was in the original draw-down request in the project file , but W:lS pl:leed in the
middle of the dT;\w·down request and not at the end as it was listed on the summary of items
page. A copy of the back-up for this expenditure is attached.

#3: The back-up documentation for Ihose two expenditures totaling $390 were included in
the original draw-down and were obtained from 1he JD Edwards system's on-line back-up
file auached to the County's internal document collection system . The back-up
documentation is :Ittached to this email.

#4; S(.:e RESPONSE to #1. We did an amendment 10 the Road Called STRATE's contract
to increase amount of those two line-items to correct the mistake. See Road Called STRATE
Amendmcnt attached to this cmail.

DATA QUALITY A ND RE PO RTING

Adams County Community Development followed the State of Colorado Department of
Local Am~ irs (DOLA) FTE Reponing Guidelincs contained in the Monthly Report Form
Template provided by DOLA that stated:

       ~ FTF. C~lculalion$: TII~ n umber or FTE $ of jobs t ruledlr~rDincd fields s~o " ld b~
       ratcu!9I NI II5: Fn: - Cu muI Rti"e Hours W,)rhd tllat ""frc hlnd~d by the Rrco\'~ry Act

                ('u'Hula!;,.., H""", In, Full·t;me Schedule E, amplcs' 

                A p<:rSQn work ing full'lim~ fw I yc~r " t fTE. 

                A perSQn work ing half-t, me fill t yco<   S FTE. 

                A pe(",," w()/ki"g full-l,me fo, 3 m"" th.... 25 FiE. 


       Not~   Ih al Ih cllcub tlon is CUMULATIV E an d 'n dud cs jo bs IlIRE C'TI, Y cnaled or
       rttl,lnl'd by ARM    projecl ~ ,"
                                                                                                               Page30f9




This report templ ate clearly states that FTE calculations should be reported cumulatively \0
DOLA and not quarterl y per guidance provided by DOLA via email to Adams County
Community Developmcnt on February 18,2010 (please see attached email). Once the OIG
noted the quart erly vcrsus cumulative reporting requirement, Adams County Community
Development Immediatel y addressed the issue ;lIId submitted quarterly numbers to DOLA
for FTE's dircctly suppo rted wit h CSAG ARRA funds in all subsequent reports as noted in
the Finding Outl ine.

POLICIES AND PROCEDURES

AI the time of the OIG Audit, Community Development was in restructure and a year had
not yet passed; as such, the Policies and Procedu re Manual was still in '"Draft" fonnal. At the
tim e of this response, ho wever, th e e SSG and ARRA Pol icies and Procedures Manual has
been reviewed by Eltl.:cutive Management and is authori Led as "Accepted" .

Additionally, at the time of this response, Adams County has developed the following
guidance to d iffert:ntiatc non-p ro fi t and sub-recipient administrative costs from other eligible
costs:

 Direct venll~ Ad m inidrative eo~ u
Adams Cou nty fo llows the guidance provided by the CSBG Act and the Department of Local
Affairs (DOLA) in detennining the proper allocution of administrative costs versus direct
dcl ivery costs.

Direct delivery oosts are those e;o;penditures as~ociated with the c1cl ivery of a particular
e SBG project, service, or activity. TIlis includes those eltpenditures in line item accounts that
can be identified as supporting the eSBG program. These accounts include, al though are not
limited to: food suppl ies; operating supplies: mileage; travel; business meetings; education
and training; and other communication. Administrative costs are typically detined as
overhead or indirect costs. These include. although are not limited to: subscriptions;
membership dues; building usage: equipment rental; postage; and plinting.

TI,e dOCUIlIt:ntatiOIl fvl' cacll t:}[I't:udiclJlc b rt: vit:wt:d uy t],t: progrm n <lwJ finalll't: staff to
detennine if the cost is a direct program cost, and is then coded to the appropriate business
unit and linc item account. The monthly financial analysis report captures the account line
items that make up the direct del ivery costs and the administrative costs on a cumulativc
baS IS.

Each staff member allocating hours worked to the CSBG program specify on a monthly
allocation report the time that is worked in an administrative capacity andlor in a program
delivery CJpacity. The percentages in this allocation ure used to determine the dollur amount
thai is apphedlo the rcspect ivc categories.

AU of the above calculations are used in the final report that is submi tted to the DOLA at the
end of the program year in Scction E of the Final Report.
                                                                                               Page4of9




WUISTLEUlOWER I'RQCESS

Upon realization the AR ltA- related Whistleblower NOllce was not posted, Adams County
staff immediately published the poster in all relevant staff areas and the notice remains in
force to date. Adams County contlnues to work with the County Altomey's Office and
HUlJlan Resources Office to ensure all rederal lJIandates are met and no tices are published
accordingly.
                                                                                                                           Page 50f9




                                                        Attachment 2. Recalculation Access Housing


---.,.-".. -- ~' -~--.-"   ------.._._-"
'" _ _ '_"_ _ '_' __,.",,.____             _"_,,.~_,, ___ _E~!~~.~~E:~~:sl1Cwt'!t   ......... ~,,_.   


 ~~~,~-,,-.--
f"""">~~"t'
                                     -----,-­




Data

                                                                                                             -.."~ $000
                                                                                                          -"'-----s;oo
                                                                                                                   $<leo
                                                                                                                  Page 6 of9




      -_.- -'-"----,-,------,------.1---
           ltno.. • IIQ~ P,,"fiM.   l~d   SOi1Jr..   ,,,.....ltd SO.~   ~r   Cri'l!*I':.(lU
                                                                                              .--- ----,------,
Data
Redacted




Data
Redacted
                                                                                                                                        Page7of9




                                                              Attachment 3. Emai l                to Access Housing


Jacq ueli ne Pickett
From:                       j osiah MaSIngale
Sent:                       Thursday, August 05, 2010 12:2': PM
To :                        Jacqueline Pickell
Subj ect:                   CSSG·R Salary Recalculalio rl and Deduction of next Draw·Down
Attaehments :               Recalculallon 01 ACCESS Housings Salary and Fnnge 10( CS8G·R.xls)f

Importa!>ce:                High


Hello Virginia,

Following the Ofhce 01 Inspector General's review of ACCESS Housing's ~ alary & frinSe bene fit expen di tures in the CSSG·
R prosram, we were told tha t we needed to recalculate the salary & f.mge bene fit s paid th rough the CSBG·R program
according to actual hours worked and not the percentage placed next to the CSBG·R col umn on each empl oyee'~
timecards ,

Alta,hed is the splead~heet we have created to ca lculate what we paid ve rsu~ what we Shou ld ha~e paid for sill ary &
fringe benefits for ACCESS HOUSing's CSSG·R program through Ap ril 2010. We will be going off 01 actual hours worked
for all subsequent draw-downs.

In order for u. alleviate this issue, we w ill ded uct $1.156.66 from ACCESS Housing's next CSSG·R drilw·down that is
proce ssed.

Please let me know of an y quest ions/concerns.

Th anks,
Josiah




                                                                                               .' 'n          'I"" "",~od"""''''''''r'''
                                        ,...                                            .".,    I~ d   o.   ~,k"', .." ....   I""""'"
                                                                                                            .n<-""'f't,... _,t.y
                                                                                                                                     Page 8 of 9




                                          Attachment 4. Recalculation Road Called STRATE


- - - - - - - m G , R Recalculations for Road Called STRATE
~d Called STRAT£    I                                                            ----
employee
                    I
                    .
                        Draw II/Pay       I(aid Salary I(orr£'cl
                                                        5 I
                                                                       ISalary       PaId             Correct       Fringe
                        Penod tI                         a ory         Difference Fringe            iFringe         Difference

                        DOI/Ocl. 1            $36438    $297_33   ·$6/.05    526.54, $26.54                                  $0.00
 Data
                                                                             S2~~~2654
 Redacted
                        DOl/Oct 2
                        DOl/Oct. 1
                                              $364.38
                                              $989.37
                                                        $29/.33
                                                        $989.38
                                                                  -$67.05
                                                                    SO.Ol -$8829i-   $88.29
                                                                                                                             $0.00
                                                                                                                             $0.00
                        DOl/Oct. 2          $1,022.61   $989.38   ·$33,23    $9126[  $88.29                              -S2.97J
Totals DD1/Oct.      .                      $2,740.74 $2,573.42 -$167.32 $232.63 $229.66                                 -$2.971

                        DOl/Noli.   1         $291.50   $29150              $0.00           S26.01       $26,01            $0,00
 Data                r::-::-~-'
                        DOl/Nov.    2         $282.76   $291.50             $8.74           $26.53:      $26.01           -$052
                     ~c_
 Redacted               OD1INoII    1         $989.36   $989.38             SO.02           $88.29       $88.29            $0.00
                        DOl/Nov     i         $989.36   $989.38             $002            $88.29       $88,29            $0,00
Totals DD1/Nov.         -                   $2,552.98 $2,56J.76             $8.78
                                                                             -          $229.12
                                                                                      - "_.
                                                                                                        $228.60          -$0.52
                                                                                                    ,
                        DOl/Dec, 1             $282.76      S29/.33        $14,57          $2653          $26,53           $0,00
 Data                   ~Ol/Dec, 2             $303,16      $2911.42       ·$874           $26.53         $26.27          ·$0.26
 Redacted               DOl/Dec. 1             $989.38      5989.38         $0,00         $88,30          $88,30           $0.00
                        DOl/Dec. 2             $933,97      $933,97         $0,00         $83,36         $83.36            $0.00
Totols DOl/De"                               $~,509.27    $2,515,10         $5,83        $224.72        $224.46          -$0.26

                        OOl/Jan 1             $364.34   $294,42   $69.92                   $J8.77        $18.77          $0.00
 Data                   DOl/Jan. 2            $300.25   $294.42    -$5.83                 $18.77         $18.77          $0,00
 Redacted               DOl/Jan 1            $1,108,10  $989.38 -$118,72                  $75.68         $75.68          $0.00
                        DOl/Jan 1            $1,088.00  $992.00   $96.00                   $66,63        $66.63          $0.00
Totals DOl/Jan,                             $2,860.69 $2,570.22 -$290.47                 $179.85        $179.85          $0.00

                        DOl/reb, 1            $291.50   $29) ,33             $5.83         $18.96        $18.96           $0,00
 Data                   DDl/reb, 2            $291.50   $29150               50,00         $18.58        $18.58           s(WO
 Redacted            ~Feb,      1             $992.00   $989,44             ·S2.S6        $66.47         $66.41           SO.OO
                        ODl/feb 2             S99S84    $995,84              $0,00         $6689,        $66,89           $0.00
Totals DOl/Feb.      -                      $2,570.84 $2,574.Jl             $3.27        $J16,70        $1J6.70           $0.00

                        DOl/Mar.    1         $291.50   $297.33             $5.83       $18.96            $18.96         $0.00
 Data                   DOl/Mar.    ..,       $288.59   S306.08            S17A9        $1951            $19.51          $0.00
 Redacted               DOl/Mar,
                        DOl/Mar.
                                    1
                                    2
                                              $995,84
                                              $995.84
                                                        $992.00
                                                          ,- ,

                                                        5999.68
                                                                           -53,84
                                                                           'Si84     -.
                                                                                        $66,63
                                                                                        $67.16
                                                                                                          $66.63
                                                                                                         $67.16
                                                                                                                         $0,00
                                                                                                                         $0.00
Totals DOl/Mar.      .                      $2,571.77 $2,595,09           .~ ~$172.26                   $172.26          $0.00


 Data
 Redacted
                  jI""{A" ,
IApr.2
                        IApr. 1
                                              $311,91
                                              $308.99
                                              $983.04
                                                        $29/33
                                                        $306.08
                                                       $989,44
                                                                ·$14.58
                                                                 -$2,91
                                                                  $6.40
                                                                                            SO.OO
                                                                                            $0.00
                                                                                            $0,00
                                                                                                          SO.OO
                                                                                                          $0,00
                                                                                                          $0.. 00
                                                                                                                          $0,00
                                                                                                                         $0.00
                                                                                                                         $0.00
                     DD2IApr.2                5986.88 $1,003.52  $16,64                     $0.00         $0,00          $0.00
!TotalsDD2!Apr.     I·                      $2,590.82 $2,5~,- $5.S5 I                       $0.00         $0.00          $0.00
                                                                               Page 9 of 9




 Data
 Redacted




-R-ed-u-c-ti-o-n-o-f-N-ex-t-O-ra-w-·-o-o-w--n-------------------------.--­
 Overpaid Salary $21.080.36-$20,695.42;;                           $384.94
fs>verpa'd Fringe (S600 line-item) $1.155.28·$600 =                $555.28
Toto/Reduct/on   of Next Draw·Down "        _ _ _ _ _ ........:.S.:...94£E..
